No. 19In the

Supreme Court of the United States

MARITIME LIFE CARIBBEAN LTD.,
Petitioner,
v.
THE UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI
William V. Roppolo
Kyle R. Olson
Jodi A. Avila
Baker McKenzie
1111 Brickell Avenue,
Suite 1700
Miami, Florida 33131
(305) 789-8900

Michael A. Pollard
Counsel of Record
Baker McKenzie
300 East Randolph Street,
Suite 5000
Chicago, Illinois 60601
(312) 861-8000
michael.pollard@bakermckenzie.com

Counsel for Petitioner

289609

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Title 28, section 516, of the United States Code, vests
the authority to litigate on behalf of the United States in
the Department of Justice, under the supervision of the
Attorney General. In turn, section 543 vests the Attorney
General with the power to appoint attorneys to assist
United States attorneys in the conduct of the litigation.
The question presented is whether a district court’s
usurpation of the Attorney General’s power to appoint a
private attorney to represent the interests of the United
States—over the United States’ objection—is subject to
harmless error review.

ii
PARTIES TO THE PROCEEDINGS AND
CORPORATE DISCLOSURE STATEMENT
A. Parties to the Proceeding
This action was initially brought by the United States
against Raul Gutierrez, and others in a multi-defendant
indictment. Mr. Gutierrez pled guilty to the crimes
charged and the United States moved for a preliminary
order of forfeiture. Thereafter, petitioner, Maritime Life
Caribbean Ltd. (“Maritime”), filed a third-party ancillary
petition pursuant to 21 U.S.C. § 853(n). Over the United
States’ objection, the District Court instructed a thirdparty, the Republic of Trinidad and Tobago (“Trinidad”),
to represent the United States in the ancillary proceeding.
B. Corporate Disclosure Statement
Maritime does not have any parent corporations.
No other publicly held company owns 10% or more of
Maritime’s stock. This disclosure is made pursuant to
Rule 29.6.
C. Complete List of Directly Related Cases
United States v. Gutierrez, Case No. 05-20859,
District Court for the Southern District of Florida

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED  . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS AND
CORPORATE DISCLOSURE STATEMENT . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 2
STATUTES INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION  . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

iv
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
F O R T H E E L E V E N T H C I R C U I T,
FILED JANUARY 16, 2019 . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — EXCERPTS OF HEARING
T R A NSCRI P T OF U NI T ED STAT ES
DISTRICT COURT FOR THE SOUTHERN
DI S T R IC T OF F L OR I DA M I A M I ,
DATED DECEMBER 8, 2016 . . . . . . . . . . . . . . . . . 16a
APPENDIX C — EXCERPTS OF HEARING
TRANSCRIPT OF THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, MI A MI
DIVISION, DATED JULY 9, 2014 . . . . . . . . . . . . . 19a
A PPEN DI X D — EXCER P T S OF
H E A RI NG T R A NS CRI P T OF T H E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA, MIA MI DI VISION, DATED
JANUARY 23, 2012 . . . . . . . . . . . . . . . . . . . . . . . . . . 23a
APPENDIX E — EXCERPTS OF HEARING
TRANSCRIPT OF THE UNITED STATES
DISTRICT COURT SOUTHERN DISTRICT
O F F L O R I DA , M I A M I D I V I S I O N ,
DATED APRIL 12, 2007  . . . . . . . . . . . . . . . . . . . . . 27a

v
Table of Appendices
Page
APPENDIX F — ORDER OF THE UNITED
STAT ES DISTRICT COU RT OF THE
SOUTHERN DISTRICT OF FLORIDA,
DATED MARCH 8, 2007 . . . . . . . . . . . . . . . . . . . . . 31a
A PPENDIX G — TRANSCRIPT OF THE
UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF FLORIDA,
DATED MARCH 6, 2007 . . . . . . . . . . . . . . . . . . . . . 33a
APPENDIX H — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT,
FILED APRIL 10, 2019 . . . . . . . . . . . . . . . . . . . . . . 34a

vi
TABLE OF CITED AUTHORITIES
Page
Cases
Bowsher v. Synar,
478 U.S. 714 (1986)  . . . . . . . . . . . . . . . . . . . . . . . .  16, 17
Buckley v. Valeo,
424 U.S. 1 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 14
Gomez v. United States,
490 U.S. 858 (1989) . . . . . . . . . . . . . . . . . . . . .  17, 19, 20
INS v. Chadha,
462 U.S. 919 (1983)  . . . . . . . . . . . . . . . . . . . . . 12, 15, 16
Kingdomware Techs., Inc. v. United States,
136 S. Ct. 1969 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Morrison v. Olson,
487 U.S. 654 (1988) . . . . . . . . . . . . . . . . . . . . . . . . 12, 15
Myers v. United States,
272 U.S. 52 (1926)  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Torres v. Oakland Scavenger Co.,
48 U.S. 312 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
United States v. Maritime Life Caribbean Ltd.,
913 F.3d 1027 (11th Cir. 2019)  . . . . . . . . . . . . . . . . 2, 10

vii
Cited Authorities
Page
United States v. Maritime Life Caribbean Ltd.,
No. 17-10889, 2019 U.S. App. LEXIS 10702
(11th Cir. Apr. 10, 2019) . . . . . . . . . . . . . . . . . . . . . . 2, 10
United States v. Nixon,
418 U.S. 683 (1974)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Olson,
716 F.2d 850, 853 (11th Cir. 1983)  . . . . . . . . . . . .  17, 20
United States v. Providence Journal Co.,
485 U.S. 693 (1988) . . . . . . . . . . . . . . . . . .  13, 17, 18, 20
United States v. Wrigley,
520 F.2d 362 (8th Cir. 1975) . . . . . . . . . . . . . . . . . . . . 15
Young v. United States ex rel. Vuitton et Fils
S.A. et al.,
481 U.S. 787 (1987)  . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes
21 U.S.C. § 518(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
21 U.S.C. § 853  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
21 U.S.C. § 853(n) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6
21 U.S.C. § 853(n)(5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

viii
Cited Authorities
Page
28 U.S.C. § 516  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13, 14
28 U.S.C. § 516(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 19
28 U.S.C. § 543 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 15, 16
28 U.S.C § 543(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 15
28 U.S.C. § 544 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 16
28 U.S.C. § 636(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
28 U.S.C. § 853(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
28 U.S.C. § 853(k) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 14
28 U.S.C. § 853(n) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Rules
Fed. R. Civ. P. 24(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Other Authorities
Article II, § 2, cl. 2 of the Constitution  . . . . . . . . . . . . . 15
The Confiscation Cases, 74 U.S. 454, 457 (1868)  . . . . . 14

1
OPINIONS BELOW
The judgment of the Court of Appeals is reported at
913 F.3d 1027 and reproduced at App. A. The order of the
Court of Appeals denying the petition for rehearing is
available at 2019 U.S. App. LEXIS 10702 and reproduced
at App. H.
The District Court’s order granting a foreign
sovereign’s motion to intervene in the ancillary forfeiture
proceeding is reproduced at App. F (ECF No. 473). The
District Court announced its decision overruling the
United States’ objection to the intervention from the
bench. The relevant pages of the transcript are reproduced
at App. E (ECF No. 1286, 04/12/07 Tr. 305:19-24). From
the bench, the District Court authorized the foreign
sovereign to “carry the burden” for the United States, to
“get the United States out of the picture.” The relevant
page of the transcript are reproduced at App. D (ECF No.
829, 01/23/12 Tr. 515:14–516:5). The District Court order
recognizing that the foreign sovereign had no legal right,
title or interest, but allowing the foreign sovereign to
remain in the proceeding, “not in their own rights, but . . .
to do the work on behalf of the United States,” is available
at App. C (ECF 976, 07/09/14 Tr. 708:14–22). The District
Court order authorizing the foreign sovereign to relieve
the United States of its “heavy burden of prosecuting the
case by putting that burden on the real party in interest”
is available at App. B (ECF No. 1242; ECF No. 1283,
12/08/16 Tr.).

2
STATEMENT OF JURISDICTION
The judgment of the Court of Appeals was entered on
January 16, 2019. App. A; United States v. Maritime Life
Caribbean Ltd., 913 F.3d 1027 (11th Cir. 2019). On April
10, 2019, the Court of Appeals entered an order denying
Maritime’s timely filed petition for panel rehearing and
for rehearing en banc. App. H; United States v. Maritime
Life Caribbean Ltd., No. 17-10889, 2019 U.S. App. LEXIS
10702 (11th Cir. Apr. 10, 2019). Petitioner invokes the
jurisdiction of the Court pursuant to 28 U.S.C. § 1254.
STATUTES INVOLVED
• 28 U.S.C. § 516(a) – “Except as otherwise authorized
by law, the conduct of litigation in which the United
States, an agency, or officer thereof is a party, or
is interested, and securing evidence therefor, is
reserved to officers of the Department of Justice,
under the direction of the Attorney General.”
• 28 U.S.C § 543(a) – “The Attorney General may
appoint attorneys to assist United States attorneys
when the public interest so requires, including the
appointment of qualified tribal prosecutors and
other qualified attorneys to assist in prosecuting
Federal offenses committed in Indian country.”
• 28 U.S.C § 544 – “Each United States attorney,
assistant United States attorney, and attorney
appointed under section 543 of this title, before
taking office, shall take an oath to execute faithfully
his duties.”

3
• 28 U.S.C. § 853(k) – “Bar on intervention. Except
as provided in subsection (n), no party claiming
an interest in property subject to forfeiture under
this section may— (1) intervene in a trial or appeal
of a criminal case involving the forfeiture of such
property under this section . . .”
• 28 U.S.C. § 853(n) – “Third party interests . . .
(2) Any person, other than the defendant, asserting
a legal interest in property which has been
ordered forfeited to the United States pursuant
to this section may, within thirty days of the final
publication of notice or his receipt of notice under
paragraph (1), whichever is earlier, petition the
court for a hearing to adjudicate the validity of his
alleged interest in the property. The hearing shall
be held before the court alone, without a jury. . .”
STATEMENT OF THE CASE
On November 3, 2006, Mr. Gutierrez pled guilty to
criminal charges and agreed to forfeit his home, located
at 12850 SW 57th Avenue, Miami, Florida, 33156 (the
“Red Road Property”). The United States moved for
a preliminary order of forfeiture, which the District
Court granted. (ECF Nos. 417 & 418). Trinidad moved to
intervene, citing Federal Rule of Civil Procedure 24(a).
(ECF No. 463). In support of its motion, Trinidad relied
exclusively on its status as a victim of fraud whose alleged
entitlement to restitution was partially dependent on the
sale of the Red Road Property. Id. At a status conference,
the District Court questioned Trinidad’s standing:

4
I am not sure if [Trinidad has] standing, but we
are not going to have three people arguing the
same thing. You can form a committee on the
Government/victim side and decide who will
be speaking for that group. You should have
interests in common. If there is an issue with
that let me know.
App. G (ECF No. 726, 03/06/07 Tr. 284:21–285:2). In a
summary order, the District Court granted Trinidad’s
motion to intervene. (ECF No. 473).
At the next hearing, counsel for the United States
referred to the previous status conference and warned of
a conflict arising from Trinidad’s participation:
There is a potential conflict here . . . in a
forfeiture proceeding, it is extremely clear from
all the case law and the statute, the victims
don’t really have a right to have standing in a
forfeiture proceeding . . . And it’s of concern
to the United States because we do it all the
time. And an exception can be made which
can become precedential. At this point I’m
extremely concerned about it.
App. E (ECF No. 1286, 04/12/07 Tr. 204:4–5, 305:16–
306:11). The District Court responded: “I think you are
going to see that you are going to get a lot of cooperation
from the lawyers for [Trinidad] . . . So they probably are
going to be carrying the laboring oar, I would think, from
this point forward.” Id. at 305:19-24.

5
Five days later, the United States moved to set aside
forfeiture as to the Red Road Property, stating: “It was
always the United States’ intent, as stated in its motion
for Preliminary Order and Judgment of Forfeiture, to
move for an order vacating the Order of Forfeiture, as
to the Red Road Property . . . in favor of the restitution,
when determined.” (ECF No. 512 at 312). Trinidad
alone opposed the United States’ motion to set aside the
forfeiture. (ECF No. 515 at 319–31). The United States
acceded to Trinidad’s objection and withdrew its motion
to vacate the order of forfeiture. (ECF No. 520). Had the
motion to vacate been granted, and not withdrawn as
Trinidad requested, the Red Road Property would not
have been subject to forfeiture.
On April 29, 2010, Maritime timely filed its verified
petition pursuant to 21 U.S.C. § 853(n), requesting a
hearing, as provided for under that provision, to determine
its legal right, title, or interest in the Red Road Property.
(ECF No. 729). The ancillary proceeding hinged on the
issue of who held legal right, title or interest in the Red
Road Property before Mr. Gutierrez, for whom the Red
Road Property was home, forfeited that property as part
of his plea agreement with the United States.
Mr. Gutierrez entered his plea agreement in October
of 2006 for activity in relation to a Trinidad-based airport
construction project; by 2007, the United States initiated
a criminal forfeiture proceeding to have the Red Road
Property, among other things, forfeited. Maritime
made an unrelated $2 million interest-bearing loan to
Mr. Gutierrez that went unpaid. As collateral for that
loan, Mr. Gutierrez pledged his home, the Red Road
Property, to Maritime, by way of a collateral assignment

6
(the “Collateral Assignment”). Because the loan was
not repaid, Maritime asserted its right to the Red Road
Property through its verified section 853(n) petition. For
its part, Trinidad had no legal right, title or interest in
the Red Road Property and never filed a section 853(n)
petition.
On January 23, 2012, the District Court ordered
discovery to proceed and directed Trinidad to “carry
the burden” for the United States. App. D (ECF No. 829,
01/23/12 Tr. 515:14–516:5). The District Court asked if
Trinidad would “take on that responsibility” to “get the
United States out of the picture.” Id. (at 516:9–18). Over
Maritime’s objection, Trinidad agreed to do so. Id. (at
516:9–517:19).
Maritime later moved for summary judgment,
contending, in part, that Trinidad lacked any cognizable
interest of its own in the proceeding. (ECF No. 901). The
District Court acknowledged that Trinidad “does not have
a direct claim under 853 or under the forfeiture claim
[sic],” App. C (ECF No. 976, 07/09/14 Tr. 708:21–22), but
denied Maritime’s motion and allowed Trinidad to remain
in the action. (ECF No. 974). The District Court ruled:
“I’m going to allow [Trinidad] to remain in the association
not in their own rights, but . . . to do the work on behalf
of the United States.” App. C (ECF No. 976, 07/09/14 Tr.
708:14–22).
Over the next five years, Trinidad actively litigated on
behalf of the United States against Maritime, preparing
and submitting approximately 95% of all documents
for the United States and leading fourteen depositions
on behalf of the United States. Maritime objected to

7
Trinidad’s participation throughout the proceeding. See
e.g., App. D (ECF No. 829, 01/23/12 Tr. 517:19); (ECF No.
893, 08/22/12 Tr. 526:3–527:5); (ECF No. 1004-1); (ECF
No. 1234, 10/31/16 Tr.).
Trinidad proceeded to take the “laboring oar” and
“work on behalf of the United States.” App. C (ECF No.
976, 07/09/14 Tr. 8:14–9:1). Trinidad dominated every
facet of the proceeding on behalf of the United States to
oppose Maritime’s claim and pursue its own interests—
interests which proved not to be aligned with those of
the United States. Following years of discovery that
Trinidad conducted on behalf of the United States, and
litigation strategy that Trinidad dictated, Trinidad moved
for summary judgment. Trinidad did so on the bases
that, inter alia, Mr. Gutierrez did not own the Red Road
Property because it was titled in the name of Inversiones
Rapidven (a Panamanian bearer share corporation),
(ECF No. 1003 at 5–11), and that the failure to record
the Collateral Assignment entitled the United States to
judgment as a matter of law.
In its opposition to summary judgment, Maritime
highlighted that Trinidad’s argument—that Mr. Gutierrez
did not own the Red Road Property—was inconsistent
with the United States’ theory of forfeiture. The United
States forfeited the property through Mr. Gutierrez, not
the title-holding entity, Inversiones Rapidven. (ECF No.
1014, at 3–6). Indeed, the order of forfeiture names Mr.
Gutierrez, not Inversiones Rapidven, as the one forfeiting
the Red Road Property in connection with Mr. Gutierrez’s
plea agreement. The District Court accepted Maritime’s
argument that ownership of real property through
legal title alone is a rebuttable presumption that can be

8
overcome by determining who exercised “dominion and
control,” and denied summary judgment. (ECF No. 1014
at 6–9); (ECF No. 1157 at 9).
Rather than proceed to a merits trial, the District
Court, sua sponte, and over Maritime’s objection,
bifurcated the trial into two phases: the first to address
the collateral assignment’s authenticity (“Phase One”),
and the second to address the merits of Maritime’s claim
(“Phase Two”). (ECF No. 1221, 02/29/16 Tr.). The purpose
of the bifurcation was to defer a trial on the legal issues
raised at summary judgment. Id. (at 35:8–14).
Prior to the Phase One hearing, Maritime moved to
preclude Trinidad’s participation. (ECF Nos. 1227 & 1234,
10/31/16 Tr.). The United States responded: “The United
States generally objects to participation by victims who
lack any legally-traceable interest in property subject
to forfeiture.” (ECF No. 1235). The United States went
on: “the Interveners are not parties to the ancillary
proceedings and are not asserting petitions under 21
U.S.C. § 853(n) . . . . As such, they do not speak on behalf
of the United States and cannot dictate the United States’
litigation decisions.” Id. Nonetheless, the United States
took the position that there was no “prohibition against”
Trinidad “assisting the [G]overnment in ensuring the
success of its litigation.” Id.
The District Court denied Maritime’s motion, and
permitted Trinidad to relieve the United States of its
“heavy burden of prosecuting this case by putting that
burden on the real party in interest.” (ECF No. 1242 &
ECF No. 1283, 12/08/16 Tr.). Just before the Phase One
hearing, the United States changed its position and stated:

9
“it’s the position of the Department of Justice, which is a
representative of the United States, that the United States
has got to be conducting this proceeding, Judge.” App. B
(ECF No. 1283, 12/08/16 Tr.). Trinidad did not elicit live
testimony at the hearing, but the United States did submit
evidence that Trinidad elicited during discovery, including
five of the six deposition transcripts submitted on behalf
of the United States. (ECF No. 1222). The District Court
sua sponte cross-examined Maritime’s witnesses, Mr.
Gutierrez and Leslie Alfonso, with evidence adduced
by Trinidad, and relied heavily on Trinidad’s deposition
testimony in rendering its ruling against Maritime. (ECF
Nos. 1267 & 1270, 02/13/17 Tr.).
Following Phase One, the District Court ruled that
Maritime failed to prove that the Collateral Assignment
was authentic and thus did not permit the proceeding to
reach a Phase Two merits hearing. (ECF Nos. 1267 &
1270, 02/13/17 Tr.). In effect, the District Court treated
purported deficiencies in the Collateral Assignment
as outcome-determinative procedural defects when
these defects had previously been insufficient to defeat
Maritime’s claim on the merits at summary judgment.
Maritime appealed.
On appeal, Maritime contended that the District
Court’s order allowing Trinidad to intervene, and
instructing the United States to allow Trinidad to “carry
the burden” for and then litigate “on behalf of,” the United
States, was improper. (Appellant Br., at 33–43). Further,
relying on Young v. United States ex rel. Vuitton et Fils
S.A. et al., 481 U.S. 787 (1987), Maritime contended that
the District Court’s appointment of Trinidad’s private
counsel as interested prosecutor to litigate on behalf of

10
the United States amounted to fundamental error that
precluded harmless error analysis. Id. at 43–45.
A panel of the Court of Appeals for the Eleventh
Circuit issued a published opinion, holding that the
District Court erred in allowing Trinidad, a party without
standing, to litigate on behalf of the United States. The
panel, however, rejected Maritime’s contention that the
appointment of Trinidad, a foreign sovereign represented
by a private law firm, was fundamental error. App. A,
United States v. Maritime Life Caribbean Ltd., 913 F.3d
1027 (11th Cir. 2019). The panel reasoned that Young did
not apply in a section 853(n) proceeding because such
a proceeding is “civil in nature,” whereas Young was
a criminal contempt proceeding. Id. at 1036. Applying
harmless error, the panel concluded that reversal was
not warranted, because Trinidad’s participation did not
prejudice Maritime’s substantial rights. Id.
Maritime petitioned for panel rehearing and rehearing
en banc, contending that harmless error cannot apply to
the admitted error by the District Court. On April 10,
2019, the panel and the Eleventh Circuit Court of Appeals
denied Maritime’s petition. App. H, United States v.
Maritime Life Caribbean Ltd., No. 17-10889, 2019 U.S.
App. LEXIS 10702 (11th Cir. Apr. 10, 2019). This petition
follows.
REASONS FOR GRANTING THE PETITION
The Court should grant review, because the Eleventh
Circuit decided an important federal question that has not
been, but should be, settled by the Court. Specifically, the
Eleventh Circuit held that the District Court’s erroneous

11
appointment, over the United States’ objection, of a private
prosecutor who was not appointed by the Department of
Justice and who did not swear to faithfully execute his
duties, is subject to harmless error review. Where, as
here, the private prosecutor was also retained counsel
for a foreign sovereign, injury to the system, and not
just the parties, is especially apparent. Such an error is
never subject to harmless error review. Just as Article III
courts have no power to act without jurisdiction, to levy
taxes, or to wage war, the courts, absent express statutory
authority, which did not exist here, have no power to
appoint a private prosecutor—that power is vested in
the Attorney General. Because the District Court did not
have the authority to appoint a private attorney to litigate
on behalf of the United States, particularly one whose
client is expressly denied legal standing in the forfeiture
proceeding, it follows that the District Court’s order is not
subject to harmless error analysis. The harmless error
standard cannot convey to Article III courts authority
they do not possess.
Certiorari should also be granted to maintain
uniformity with the Court’s decision in Young v. United
States ex rel. Vuitton et Fils S.A., 481 U.S. 787 (1987).
In Young, a plurality of the Court held that the District
Court’s constitutional appointment of an interested
attorney is fundamental error. The Court should clarify,
following upon Young, that the appointment of an
interested attorney requires reversal without regard to
the facts or circumstances of the particular case.
1. The District Court appointed a private prosecutor
over the United States’ objection. That ruling must be
vacated on fundamental separation of powers principles.

12
The separation of powers principle inherent in the
Constitution prohibits Article III courts from usurping
the role of the Executive Branch. Under Article III, courts
may not exercise “executive or administrative duties of
a nonjudicial nature.” Buckley v. Valeo, 424 U.S. 1, 123
(1976). “[O]ne purpose of the broad prohibition upon the
courts’ exercise of executive or administrative duties of a
nonjudicial nature is to maintain the separation between
the Judiciary and the other branches of the Federal
Government by ensuring that judges do not encroach
upon executive or legislative authority or undertake tasks
that are more properly accomplished by those branches.”
Morrison v. Olson, 487 U.S. 654, 680–81 (1988) (internal
quotation and citation omitted). “The hydraulic pressure
inherent within each of the separate Branches to exceed
the outer limits of its power, even to accomplish desirable
objectives, must be resisted.” INS v. Chadha, 462 U.S.
919, 951 (1983).
The Attorney General had exclusive control over
the conduct of the litigation in the ancillary proceeding
below. The power to conduct litigation in which the United
States is interested is vested solely in the Department of
Justice, under the direction of the Attorney General. See
28 U.S.C. § 516. Section 516 provides: “Except as otherwise
authorized by law, the conduct of litigation in which the
United States, an agency, or officer thereof is a party, or is
interested, and securing evidence therefor, is reserved to
officers of the Department of Justice, under the direction
of the Attorney General.”
The present case clearly is one “in which the United
States is interested.” Pursuant to section 853, property
subject to criminal forfeiture shall be forfeited “to the

13
United States.” 28 U.S.C. § 853(a). Moreover, sub-section
853(n), which regulates interests of third-parties, provides
that the United States “may present evidence and
witnesses in rebuttal and in defense of its claim to the
property and cross-examine witnesses who appear at the
hearing.” 21 U.S.C. § 853(n)(5). Thus, the United States
has an interest in and is a party to ancillary proceedings
brought pursuant to section 853(n).
In cases in which the United States is interested, the
Attorney General has exclusive control over specified
litigation “except as otherwise provided or authorized
by law.” 28 U.S.C. § 516. As a threshold point, the
circumstances under which the law provides for an
exception to this exclusive grant of power are limited,
and do not apply in this case. For example, the Court has
held that a federal court’s inherent authority to punish
disobedience and vindicate its authority is “an excepted
provision or authorization within the meaning of §§ 516
and 547.” United States v. Providence Journal Co., 485
U.S. 693, 704 (1988) (citing Young v. United States ex
rel Vuitton et Fils S.A., 481 U.S. 787 (1987)). In Young,
the District Court’s inherent authority to appoint a
special prosecutor in the context of a criminal contempt
proceeding arose out of necessity. “If the Judiciary were
completely dependent on the Executive Branch to redress
direct affronts to its authority, it would be powerless to
protect itself if that branch declined prosecution.” Young,
481 U.S. at 801.
In contrast, here there is no such necessity, and
therefore no exception or authorization, as it pertains to
the prosecution of a criminal forfeiture proceeding. See
21 U.S.C. § 853. Not only is there no statutory exception,

14
the relevant statute expressly prohibits participation by
third-parties. See id. § 853(k) (“Except as provided in
subsection (n), no party claiming an interest in property
subject to forfeiture under this section may (1) intervene in
a trial or appeal of a criminal case involving the forfeiture
of such property under this section[.]”).
Thus, the Executive’s power to litigate on behalf of the
United States in an ancillary proceeding brought pursuant
to § 853(n) is exclusive. See, e.g., United States v. Nixon,
418 U.S. 683 (1974) (“the Executive Branch has exclusive
authority and absolute discretion to decide whether to
prosecute a case”); id. at 694 (“Under the authority of
Art. II, § 2, Congress has vested in the Attorney General
the power to conduct the criminal litigation of the United
States United States.”) (citing 28 U.S.C. § 516); The
Confiscation Cases, 74 U.S. 454, 457 (1868) (“Settled rule
is that those courts will not recognize any suit, civil or
criminal, as regularly before them, if prosecuted in the
name and for the benefit of the United States, unless the
same is represented by the district attorney, or someone
designated by him to attend to such business, in his
absence, as may be appertain to the duties of his office.”).
Only officers of the United States may litigate on
behalf of the United States. Buckley, 424 U.S. at 140
(statutory provisions vesting in the Federal Election
Commission “primary responsibility for conducting civil
litigation in the courts of the Unites States for vindicating
public rights” violate the Appointments Clause because
only officers may perform such functions).
The District Court had no authority to appoint a
private attorney to assist the United States, much less to

15
“carry the laboring oar” on behalf of the United States.
Congress vested the authority to appoint a special
prosecutor in the Attorney General alone. Article II, § 2,
cl. 2 of the Constitution provides that “Congress may by
Law vest the Appointment of such inferior Officers, as
they think proper, in the President alone, in the Courts of
Law, or in the Heads of Departments.” Although, “[o]n its
face, the language of this ‘excepting clause’ admits of no
limitation on interbranch appointments,” Morrison, 487
U.S. at 673, “as the Constitution stands, the selection of the
appointing power, as between the functionaries named, is
a matter resting in the discretion of Congress.” Ex parte
Siebold, 100 U.S. 371, 398 (1879). Once Congress exercises
its authority to vest the appointment of inferior officers,
that decision (assuming constitutionally firm), must be
respected. See Chadha, 462 U.S. at 955 (“Congress must
abide by its delegation of authority until that delegation is
legislatively altered or revoked.”); cf. Morrison, 487 U.S.
at 676–77 (upholding provisions of Ethics in United States
Act that vested appointment authority over independent
counsel in special division of judiciary).
Here, Congress vested the power to appoint attorneys
to assist a United States Attorney solely in the Attorney
General. See 28 U.S.C § 543(a) (“The Attorney General
may appoint attorneys to assist United States attorneys
when the public interest so requires[.]”). In formulating
legislation for the appointment of special prosecutors,
Congress could not more clearly have granted that
authority to the Attorney General. In turn, the decision
as to when special attorneys “[are] to be employed . . . [is]
left solely to the discretion of the Attorney General, and
is not subject to review.” United States v. Wrigley, 520
F.2d 362 (8th Cir. 1975).

16
What is more, Congress conditioned the Attorney
General’s grant of power, requiring special attorneys to
be deputized: “[e]ach . . . attorney appointed [to assist
United States attorneys] under section 543 of this title,
before taking office, shall take an oath to execute faithfully
his duties.” 28 U.S.C. § 544. By using the word “shall,”
Congress expressed its intent that this condition is
mandatory. See id. (mandating that appointed attorneys
“shall take an oath to execute faithfully his duties”)
(emphasis added); Kingdomware Techs., Inc. v. United
States, 136 S. Ct. 1969, 1977 2016) (“When a statute
distinguishes between ‘may’ and ‘shall,’ it is generally
clear that ‘shall’ imposes a mandatory duty.”).
By appointing Trinidad’s counsel to act as private
prosecutor over the United States’ objection, the District
Court asserted judicial supremacy over the Executive
Branch and usurped the Attorney General’s exclusive
control over the exercise of that power. Just as Congress
cannot take such action, neither can the Judiciary.
See Bowsher v. Synar, 478 U.S. 714, 726 (1986) (“The
structure of the Constitution does not permit Congress
to execute the laws; it follows that Congress cannot grant
to an officer under its control what it does not possess.”).
The District Court had no power to appoint a private
prosecutor, much less one that was not (and, as counsel
for a foreign sovereign, could not have been) properly
deputized according to law. In so doing, the court usurped
the power of the Attorney General in violation of 28 U.S.C.
§ 543 and in contravention of the principles underlying the
separation of powers doctrine.
2. A violation of the separation of powers cannot
be harmless. See, e.g., INS v. Chadha, 462 U.S. 919,

17
958 (1983) (invalidating unconstitutional legislative
veto provision by which Congress retained the power
to reverse a decision that it expressly authorized the
Attorney General to make); Myers v. United States, 272
U.S. 52 (1926) (invalidating unconstitutional statute that
authorized Congressional participation in the removal of
executive officers because it infringed the constitutional
principle of separation of powers); Bowsher, 478 U.S. at
726 (invalidating unconstitutional statutory provision that
authorized Congress to reserve to itself the authority to
remove an executive officer).
Absent the power to act, a court lacks authority and
its judicial rulings must be vacated. Gomez v. United
States, 490 U.S. 858, 875 (1989) (reversing conviction
where magistrate had no authority to conduct voir dire or
jury selection); United States v. Providence Journal Co.,
485 U.S. 693, 698 (1988) (dismissing petition for writ of
certiorari where special prosecutor, appointed by district
court, had no authority to file petition over the objection
of the Solicitor General); United States v. Olson, 716
F.2d 850, 853 (11th Cir. 1983) (because the District Court
had no power to enhance the defendant’s sentence, the
“doctrine of harmless error does not apply”); cf. Torres
v. Oakland Scavenger Co., 48 U.S. 312, 317 n.3 (1988) (a
“litigant’s failure to clear a jurisdictional hurdle can never
be ‘harmless’ or waived by the court.”).
In Providence Journal, the Court granted certiorari
to determine whether respondents, the Providence Journal
Company, could properly be held in contempt for violating
the District Court’s subsequently invalidated restraining
order. 485 U.S. at 698. The Court, however, did not have
the opportunity to address that issue, because it concluded

18
that “jurisdiction [was] lacking,” and dismissed the writ
of certiorari. Id. at 801. The Court lacked jurisdiction
because the petition had been filed by a special prosecutor
whom the District Court appointed to prosecute the
contempt proceeding on behalf of the United States over
the objection of the Solicitor General—the official to whom
the Attorney General had delegated authority to argue
suits and appeals in the Supreme Court. Id. at 699.
The Court in Providence Journal concluded that
section 518(a) prevented the special prosecutor from
proceeding on behalf of the United States because the
Solicitor General did not authorize the proceeding. Id.
at 707–08. Section 518(a) provides: “Except when the
Attorney General in a particular case directs otherwise,
the Attorney General and the Solicitor General shall
conduct and argue suits and appeals in the Court . . . in
which the United States is interested.” 21 U.S.C. § 518(a).
After concluding that the contempt proceeding was clearly
one in which the United States was interested, the Court
held: “Absent a proper representative of the United States
as a petitioner in this criminal prosecution, jurisdiction is
lacking and the writ of certiorari, heretofore granted, is
now dismissed.” Id. at 801. Notably, the Court dismissed
the petition despite the fact that the Solicitor General took
the side of the special prosecutor. Id. at 701. The Court
reasoned: “the United States usually should speak with
one voice before this Court, and with a voice that reflects
not the parochial interests of a particular agency, but the
common interests of the United States and therefore of all
the people.” Id. at 706. In this case, the United States had
no voice. Instead, the District Court instructed a foreign
sovereign to speak on behalf of the United States, over the
United States’ objection—despite the United States and
Trinidad having different interests and, indeed, different
theories of forfeiture.

19
Similarly, in Gomez v. United States, 490 U.S. 858,
875 (1989), a federal magistrate conducted voir dire and
jury selection over the defendants’ objections and without
the power to do so under the Federal Magistrates Act,
28 U.S.C. § 636(b)(3). In a unanimous decision, the Court
reversed, holding that the Federal Magistrates Act did
not authorize magistrates to preside over the selection of
a jury in a felony trial without the accused’s consent, and
that jury selection is not among the less important pretrial
matters that a magistrate may hear and determine under
the provisions of the Act. Id. at 870–72. Notably, the Court
rejected the United States’ argument that the error was
harmless, because petitioners alleged no specific prejudice.
The Court concluded, “harmless error analysis does not
apply in a felony case in which, despite the defendant’s
objection and without any meaningful review by a district
judge, an officer exceeds his jurisdiction by selecting a
jury.” Id. at 876.
The same holds true in this case. The District Court
had no authority to appoint a private attorney, let alone
one representing a foreign sovereign, to serve as private
prosecutor. See 28 U.S.C. § 516(a). Moreover, the United
States objected to the appointment, and subsequently
informed the District Court that Trinidad’s participation
was improper and threatened a conflict of interest. App.
E (ECF No. 1286, 04/12/07 Tr. 41:25–42:11). Despite the
United States’ opposition, the District Court persisted,
and, extending its gavel into the exclusive domain of the
Attorney General, instructed the United States to allow
the foreign sovereign to “carry[] the laboring oar” on
behalf of the United States. Id. (at 41:23–24).
Because the District Court did not have authority to
appoint a private prosecutor to litigate on behalf of the
United States, it follows that the District Court’s order is

20
not subject to harmless error analysis—“[h]armless error
cannot give the District Court authority that it does not
possess.” Olson, 716 F.2d at 853; Providence Journal, 485
U.S. at 801; Gomez, 490 U.S. at 875.
Further, because it would be impossible to conclude
with any certainty that the United States would have
withdrawn its motion to set aside the preliminary order
of forfeiture had the District Court not overreached into
the province of the Attorney General, the proper remedy
is to reverse and remand with instructions to set aside
the preliminary order of forfeiture as it relates to the
Red Road Property. See Young, 481 U.S. at 815 (Scalia, J.,
concurring) (“[S]ince we cannot know whether petitioners
would have been prosecuted had the matter been referred
to a proper prosecuting authority, the convictions are
likewise void.”).
Application of harmless error is improper for the
additional reason that the District Court appointed an
interested attorney with an inherent conflict of interest
to serve as the private prosecutor. In Young, a plurality
of the Court “established a categorical rule against
the appointment of an interested prosecutor,” and
“[g]iven the fundamental and pervasive effects of such an
appointment,” held that “the harmless-error analysis is
inappropriate[.]” 481 U.S. at 814. The appointment of an
interested attorney therefore requires reversal without
regard to the facts or circumstances of the particular
case. Id. at 809.
In Young, the district court appointed the respondent’s
attorney to investigate and prosecute the petitioners in
a criminal contempt proceeding. Id. at 791. The Court

21
reversed, holding that the District Court erred by
appointing as prosecutor’s counsel an interested party
from the underlying civil case. Id. at 802–09 (plurality
opinion); 815 (Blackmun, J., concurring); 825 –26
(Rehnquist, Ch. J., O’Connor, J., Powell, J., concurring in
part and dissenting in part). The Court’s plurality went on
to hold that the District Court’s error was fundamental
and, thus, beyond the purview of harmless error analysis.
Id. at 809–14. The plurality explained that the error was
so fundamental and pervasive that it required reversal
without regard to the facts or circumstances of that
particular case. Id. at 810. The error was fundamental
because “prosecution by someone with conflicting loyalties
calls into question the objectivity of those charged with
bringing a defendant to judgment[.]” Id. at 810–11.
The effects of the error were also pervasive, as it
influenced the entire prosecution, making it “extremely
difficult” to determine the effect of the appointment. Id.
at 812. “A prosecution contains a myriad of occasions for
the exercise of discretion, each of which goes to shape the
record in a case, but few of which are part of the record.”
Id. at 813 (emphasis in original). “Such an appointment
calls into question, and therefore requires scrutiny of,
the conduct of an entire prosecution, rather than simply
a discrete prosecutorial decision.” Id. at 812.
The same core policy considerations are present here.
In accordance with Young, the error in this case was so
fundamental and pervasive that it amounts to fundamental
error immune from a harmless error analysis. As the
attorney representing a purported victim seeking
compensation based on a successful forfeiture, Trinidad’s
attorney had a conflict of interest that undermined the

22
integrity of the proceedings.1 What is more, Trinidad’s
control of the litigation for more than seven years, “on
behalf of” The United States, profoundly “shap[ed]” the
record of this case.
3. That the third-party ancillary proceeding is
“civil” in nature does not insulate the proceedings from
the interested attorney’s inherent conflict of interest.
See Young, 481 U.S. at 805 (“Regardless of whether the
appointment of private counsel in this case resulted in any
prosecutorial impropriety . . . that appointment illustrates
the potential for private interest to influence the discharge
of public duty.”).
The effects of Trinidad’s participation were also
pervasive. Trinidad, acting on behalf of the United States,
like the special prosecutor in Young, was “armed with
expansive powers and wide-ranging discretion.” See id.
at 813. Trinidad’s counsel carried the “laboring oar,”
deciding whom to depose on behalf of the United States,
what evidence to bring forth to the district court, what
arguments to make at summary judgment, whether and
how the case should be settled, among a myriad of other
discretionary decisions. Indeed, at ever material turn over
the span of more than seven years, Trinidad’s counsel
dictated the litigation strategy for the United States in
opposing Maritime’s claim, all while Trinidad’s interests
diverged from those of the United States.
1. Although often difficult to determine the effect of the
appointment, id. at 812, the effects in this case were apparent:
Trinidad alone opposed the United States’ motion to vacate the
preliminary order of forfeiture. (ECF Nos. 512 & 515). Further, at
summary judgment, Trinidad took a position that was inconsistent
with and undermined the United States’ theory of forfeiture. (ECF
Nos. 1003 & 1004).

23
Pursuant to Young, it would be fundamental error to
permit an attorney with a pecuniary interest in property
subject to a criminal forfeiture from representing the
United States during the criminal forfeiture. See id.
at 814. It is therefore incongruous with Young to hold
that an interested attorney may defend the United
States’ interests in a third-party ancillary proceeding
to a criminal forfeiture. The outcome is the same. The
interested attorney profits from the successful defense
of the third-party’s claims just as she would profit from
the direct forfeiture of the criminal defendant’s property.
CONCLUSION
For the foregoing reasons, Maritime respectfully
requests that the Court grant its Petition for Writ of
Certiorari and, upon review, vacate the judgment of
the District Court, reverse the United States Court of
Appeals for the Eleventh Circuit’s decision, and remand
with instructions to set aside the preliminary order of
forfeiture as it relates to the Red Road Property.
Respectfully submitted,
William V. Roppolo Michael A. Pollard
Kyle R. Olson
Counsel of Record
Jodi A. Avila
Baker McKenzie
Baker McKenzie
300 East Randolph Street,
1111 Brickell Avenue,
Suite 5000
Suite 1700
Chicago, Illinois 60601
Miami, Florida 33131 (312) 861-8000
(305) 789-8900
michael.pollard@bakermckenzie.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED JANUARY 16, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-10889
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MARITIME LIFE CARIBBEAN LIMITED,
Interested Party-Appellant,
RAUL J. GUTIERREZ,
Defendant.
Appeal from the United States District Court
for the Southern District of Florida.
D.C. Docket No. 1:05-cr-20859-PCH-1
January 16, 2019, Decided
Before WILLIAM PRYOR and MARTIN, Circuit
Judges, and WOOD,* District Judge.
*  The Honorable Lisa Godbey Wood, United States District
Judge for the Southern District of Georgia, sitting by designation.

2a
Appendix A
WILLIAM PRYOR, Circuit Judge:
This appeal involves two questions about an ancillary
third-party forfeiture proceeding in which Maritime
Life Caribbean asserted that it was given a security
interest in the forfeited property: whether the district
court erred in requiring Maritime Life to prove the
authenticity of the collateral assignment that allegedly
granted it a security interest in the forfeited property by
a preponderance of the evidence, and whether the district
court erred in permitting the Republic of Trinidad and
Tobago to intervene in the forfeiture proceeding even
though it had no legal interest in the property. We conclude
that, although both rulings were in error, neither error
warrants reversal. We affirm.
I. BACKGROUND
Raul Gutierrez pleaded guilty in 2006 to a variety of
wire- and bank-fraud charges arising from a bid-rigging
scheme involving the construction of an airport in Trinidad
and Tobago. After sentencing, the district court entered a
preliminary order of forfeiture against him in the amount
of $22,556,100, representing the proceeds of his criminal
activity. The forfeiture included Gutierrez’s interest in a
piece of real property located at 12850 Red Road in Coral
Cables, Florida, the title for which was held by Inversiones
Rapidven, S.A. Although the plea agreement exhaustively
listed Gutierrez’s assets and liabilities, it did not mention
any encumbrance on the Red Road property.

3a
Appendix A
The Republic of Trinidad and Tobago moved to
intervene in the forfeiture proceeding under Federal
Rule of Criminal Procedure 32.2. Trinidad asserted that
it was a victim of the bid-rigging conspiracy and that it
had an interest in any forfeiture proceeds that might
result from the sale of the Red Road property, but it did
not assert any legal interest in the property itself. The
district court expressed skepticism about the propriety
of permitting Trinidad to intervene and acknowledged
that it was “not sure if [Trinidad has] standing” under
the statute governing criminal forfeitures, 21 U.S.C.
§ 853. Despite these misgivings, the district court
granted Trinidad’s motion to intervene. It directed
Trinidad and the government to “form a committee on the
government[/]victim side and decide who will be speaking
for that group.”
At a later status conference, the government
expressed concern over a “potential conflict” between the
parties’ interests and argued that victims like Trinidad do
not “have standing in a forfeiture proceeding.” The district
court disregarded this concern on the ground that the
government was “going to get a lot of cooperation from the
lawyers for [Trinidad]” and Trinidad probably would end
up “carrying the laboring oar . . . from this point forward.”
In the district court’s view, Trinidad’s intervention was
permissible because it was the party who was “going to
benefit if the government wins on the forfeiture.”
In 2010, the district court instructed the government
to issue a Notice of Criminal Forfeiture addressed to Steve
Ferguson, the former chief executive officer of Maritime

4a
Appendix A
Life. Ferguson and Gutierrez were longtime business
associates and friends, and both were implicated in the
criminal charges underlying the forfeiture proceeding.
Maritime responded to the notice by filing a third-party
claim asserting an interest in the Red Road property
under the criminal-forfeiture statute, 21 U.S.C. § 853(n),
and Rule 32.2(c). To support its claim, Maritime produced
an alleged collateral assignment that purported to
memorialize a transaction in which Gutierrez granted a
security interest in the Red Road property to Maritime
as collateral for a $2 million loan to Keystone Property
Developers, Ltd., Gutierrez’s construction company. The
alleged assignment is dated July 24, 2001 and was signed
by Gutierrez in his capacity as president of Calmaquip
Engineering Corporation, but it was never recorded.
The government and Trinidad opposed Maritime’s
claim. The parties then engaged in protracted discovery
in which Trinidad played a significant role, leading
14 depositions on behalf of the government. Maritime
objected to Trinidad’s participation in the litigation, but
the district court denied its motion. The district court
acknowledged that Trinidad “does not have a direct claim
under [section] 853 or under the forfeiture claim” but
permitted Trinidad to proceed, “not in [its] own rights,
but . . . to do the work on behalf of the government.”
After discovery, Trinidad and the government jointly
moved for summary judgment, but the district court
denied that motion. Instead, it sua sponte decided to hold
a bifurcated trial with an initial phase focused solely on
the question whether “to admit the collateral assignment

5a
Appendix A
as being genuine and authentic” under Federal Rule of
Evidence 901. The second phase was to address the merits
of Maritime’s interest in the Red Road property. The
district court explained that the question of authenticity
was “a nice clean issue” that, if resolved against Maritime,
would obviate the need to resolve the complicated dispute
about the legal effect of an unrecorded assignment of a
security interest in real property for which Gutierrez,
the party who allegedly conveyed the assignment, did
not hold title. Maritime objected on the ground that the
authenticity issue should be consolidated with the merits
issues, but it later conceded that an adverse ruling on
authenticity would make the “other issues . . . go away.”
At the hearing for the first phase of trial, Maritime
presented three witnesses: Lesley Alfonso, the Maritime
director who allegedly discovered the collateral
assignment; Frank Norwitch, a certified document
examiner who reviewed the collateral assignment; and
Raul Gutierrez, who allegedly signed the assignment. The
government presented no live witnesses. Alfonso testified
that in early 2010, Andrew Ferguson, Maritime’s chief
executive officer and the son of Steve Ferguson, asked
her to search for any documents related to the Red Road
property. She asserted that she discovered the assignment
in the files of a deceased Maritime executive who had
managed the loan transaction with Gutierrez. Alfonso
also testified that she returned to the storage room to
ensure that there were no other documents responsive to
the description she was given. Cross-examination by the
government and questioning by the district court made
clear that this testimony conflicted with Alfonso’s earlier

6a
Appendix A
deposition testimony, in which she agreed that she did
not have “occasion to go back into the storage room and
look at the folder or anything else that was around that
document.”
Norwitch testified as an expert after the government
stipulated to his qualifications. He testified that he
examined the watermark and the ink used in both
the typed and handwritten portions of the collateral
assignment and concluded that there was “no evidence
that this document was anything other than what it is
purported to be.” But Norwitch explained that the ink
used in the document has been in commercial use for
decades and that he could not determine “when [the]
document was signed.” And Gutierrez testified that he
executed the collateral assignment on July 24, 2001, after
Maritime requested additional collateral. He admitted
that he failed to list the assignment in his presentence
investigation report and testified that he never thought
to record the multi-million-dollar transaction. Gutierrez
also acknowledged that he had been convicted of crimes
of fraud and that he had falsified his community-service
hours after being released from prison.
After the hearing for the first phase of trial, the
district court ruled that Maritime had failed to carry
its burden of proving the authenticity of the collateral
assignment “by the greater weight of the evidence.”
The court determined that circumstantial evidence and
unexplained defects present on the face of the document
undermined the inference that the assignment was
authentic. It also determined that the expert testimony
was inconclusive, that Alfonso and Gutierrez were not

7a
Appendix A
credible, and that virtually no evidence corroborated the
authenticity of the assignment. Having ruled that the
collateral assignment was inauthentic, the district court
concluded that it was unnecessary to proceed to the second
phase of trial and denied Maritime’s claim.
II. STANDARD OF REVIEW
“We review a district court’s legal conclusions
regarding third-party claims to criminally forfeited
property de novo and its factual findings for clear error.”
United States v. Marion, 562 F.3d 1330, 1335 (11th Cir.
2009).
III. DISCUSSION
We divide our discussion in two parts. First, we
explain that although the district court applied the wrong
standard when it assessed the authenticity of the alleged
collateral assignment, the error was harmless. Second,
we explain that the district court erred by permitting
Trinidad to intervene, but this error too does not warrant
reversal.
A. The District Court Committed Harmless Error
in Ruling that the Collateral Assignment Was
Inauthentic.
The district court ruled that the “burden of proof”
was “on Maritime to prove by the greater weight of the
evidence that the collateral assignment” is “an authentic
document,” but this ruling was in error. Even so, Maritime
has suffered no prejudice.

8a
Appendix A
A two-step process governs the determination of
whether a document is authentic. The district court must
first make a preliminary assessment of authenticity
under Rule 901, which “requires a proponent to present
‘sufficient evidence to make out a prima facie case that
the proffered evidence is what it purports to be.’” United
States v. Lebowitz, 676 F.3d 1000, 1009 (11th Cir. 2012)
(quoting United States v. Belfast, 611 F.3d 783, 819 (11th
Cir. 2010)). If the proponent satisfies this “prima facie
burden,” the inquiry proceeds to a second step, in which
“the evidence may be admitted, and the ultimate question
of authenticity is then decided by the [factfinder].” Id.;
see also In re Int’l Mgmt. Assocs., LLC, 781 F.3d 1262,
1267 (11th Cir. 2015) (“Once [a] prima facie showing
of authenticity [is] made, the ultimate question of the
authenticity of the documents [is] left to the factfinder.”).
The first phase of the bifurcated trial framework
adopted by the district court was intended to address only
the preliminary question of authenticity. Under the twostep process contemplated by Rule 901, Maritime bore the
burden of establishing a prima facie case of authenticity
at the first stage. Only at the second step would “the trier
of fact . . . appraise whether the proffered evidence is in
fact what it purports to be.” United States v. Caldwell,
776 F.2d 989, 1002 (11th Cir. 1985).
By requiring Maritime to prove authenticity by
“the greater weight of the evidence,” the district court
compressed the two steps of the inquiry under Rule 901
into one and conflated the issue of authenticity with the
issue of entitlement to the proceeds of the sale of the Red

9a
Appendix A
Road property, but this technical error need not warrant
reversal. Federal Rule of Civil Procedure 61 permits
reversal based on a trial error “only where the error
has caused substantial prejudice to the affected party
(or, stated somewhat differently, affected the party’s
substantial rights or resulted in substantial injustice).”
Peat, Inc. v. Vanguard Research, Inc., 378 F.3d 1154, 1162
(11th Cir. 2004) (internal quotation marks omitted). The
error by the district court prejudiced Maritime only if
there is a “reasonable likelihood that the outcome would
have been different” if the district court had ruled that
Maritime satisfied its burden to prove a prima facie case
of authenticity before proceeding to determine whether
Maritime had an interest in the Red Road property.
United States v. Jeri, 869 F.3d 1247, 1262 (11th Cir. 2017).
Maritime suffered no prejudice. If the district court
had followed the process contemplated by Rule 901, it
would have answered the ultimate question of authenticity
in the same way; the outcome of the trial would not have
differed.
The first phase of the trial featured all of the evidence
relevant to the question of authenticity. Maritime was on
notice that the district court would apply a preponderance
standard in determining whether the assignment was
authentic and had every incentive to produce all relevant
evidence. The second phase would have been a bench trial,
see 21 U.S.C. § 853(n)(2), so the district court inevitably
would have reached the same answer to the “ultimate
question of authenticity” when it acted as the finder of
fact. Lebowitz, 676 F.3d at 1009.

10a
Appendix A
The district court was entitled to find that the
assignment was not authentic under the preponderance
standard applicable at the second step of the inquiry under
Rule 901, and Maritime’s claim was bound to fail if the
assignment was inauthentic. Maritime never asserted
any other potential source of an interest in the Red Road
property, and its trial counsel even conceded that it “only
has a claim if it has an assignment.” In other words,
Maritime’s claim stood or fell with the authenticity of the
collateral assignment.
The collateral assignment was suspect on its face. It
was neither witnessed nor notarized, even though Raul
Gutierrez admitted that his secretary was a notary. The
document does not so much as mention the legal titleholder
of the Red Road property, Inversiones Rapidven, and
contains no legal description of the property. The
document was printed on Calmaquip letterhead, even
though Lesley Alfonso, a Maritime director, testified that
it was the practice of Maritime to prepare its own loan
documents. The assignment was purportedly created to
secure a limited guarantee agreement in which Maritime
lent $2 million to Keystone Construction. The assignment
states that the limited guaranty agreement was attached
to it, but Alfonso testified that nothing was attached to the
assignment when she allegedly found it. Maritime’s own
expert concluded that there was no evidence suggesting
that anything had ever been attached to the assignment.
And the assignment was never recorded—an astonishing
oversight in a multi-million-dollar transaction.

11a
Appendix A
Circumstantial evidence also supported the finding
that the assignment was inauthentic. The limited guaranty
agreement makes no mention of the collateral assignment.
And as the district court explained, there was “not a single
document” that “referenced the collateral assignment . . .
before or after” the assignment was allegedly executed,
other than a letter that Gutierrez purportedly sent to
Richard Lacle, his associate at Inversiones Rapidven.
This letter lacked any indicia of authenticity, such as
a letterhead, physical or email address, or method of
transmission. And Lacle denied ever receiving the letter
and suggested that it was fabricated. And finally, Gutierrez
listed the Red Road property as an unencumbered asset
in his presentence investigation report and failed to list
the collateral assignment as a debt.
Based on this evidence, the district court was
entitled to infer that there was a post hoc plot between
Gutierrez and Maritime to spare the Red Road property
from forfeiture through a fabricated assignment of an
interest to Maritime. As we have explained, “[a] district
court has discretion to determine authenticity, and that
determination should not be disturbed on appeal absent
a showing that there is no competent evidence in the
record to support it.” United States v. Siddiqui, 235 F.3d
1318, 1322 (11th Cir. 2000). Even if we were to assume
that Gutierrez’s signature on the assignment is genuine,
it is entirely possible that he signed shortly before he
went to prison in an effort to shield his property from
forfeiture. Ample evidence established the existence of a
close relationship between Gutierrez and the officers of
Maritime. We reject Maritime’s assertion that Gutierrez

12a
Appendix A
could not possibly have anticipated that the government
would seek forfeiture of his property. We expect that a
person who knows he is under investigation in a case of
complex financial fraud could have foreseen the impending
forfeiture.
Ample evidence supports the finding by the district
court on the ultimate question of authenticity. And that
finding controlled whether Maritime had an interest in
the Red Road property. So no prejudicial error occurred.
B. Trinidad’s Intervention Does Not Merit Reversal.
Maritime also argues, and we agree, that the district
court erred in permitting Trinidad, a foreign sovereign, to
intervene in the ancillary proceeding to litigate on behalf
of the United States. To represent the United States, an
attorney must be either a United States Attorney, an
assistant United States Attorney, or a special attorney.
See 28 U.S.C. § 541(a) (creating procedures for appointing
a United States Attorney for each judicial district); id.
§ 542(a) (creating procedures for appointing assistant
United States Attorneys); id. § 543(a) (creating procedures
for appointing special attorneys to assist United States
Attorneys). And every attorney representing the United
States must take an oath of office. See id. § 544 (requiring
United States Attorneys, assistant United States
Attorneys, and specially appointed attorneys to take an
oath to faithfully execute their duties). Trinidad was not
specially appointed to litigate on behalf of the United
States and took no oath of office.

13a
Appendix A
Nor did Trinidad have standing to intervene to defend
its own interests. Congress has created one—and only
one—means for interested third-parties to participate
in a criminal-forfeiture proceeding: asserting a “legal
right, title, or interest” sufficient for standing in an
ancillary proceeding, 21 U.S.C. § 853(n). Section 853(k) of
the statute governing criminal forfeitures provides that
“[e]xcept as provided in subsection (n), no party claiming
an interest in property subject to forfeiture under this
section” may “intervene in a trial or appeal of a criminal
case involving the forfeiture of such property under this
section.” Id. § 853(k). As we have explained, “[a]n ancillary
proceeding constitutes the sole means by which a thirdparty claimant can establish entitlement to return of
forfeited property.” United States v. Davenport, 668 F.3d
1316, 1320 (11th Cir. 2012). Trinidad made no attempt to
intervene under section 853(n) and did not assert any
“legal right, title, or interest” in the Red Road property,
21 U.S.C. § 853(n).
Although there was no legal basis for Trinidad’s
intervention, this error too does not warrant reversal.
Maritime makes two arguments about prejudice, but
neither is persuasive.
First, Maritime argues that Trinidad’s participation
was prejudicial because the district court relied on
deposition testimony elicited by Trinidad in finding a
material inconsistency in the testimony of Alfonso. But
the bare fact that the district court relied in part on
evidence generated by Trinidad to discredit Alfonso’s
testimony does not prove prejudicial error. As the district

14a
Appendix A
court stated, its ruling against Maritime did not depend
on its rejection of Alfonso’s testimony. The district court
concluded that “even if” Alfonso “were credible,” it was
“just as likely” that the collateral assignment “could have
been placed there by anybody, and then she was sent
. . . on her merry way to find that document.” The district
court was entitled to credit this alternative explanation
of the discovery of the collateral assignment in the light
of the numerous deficiencies in the document itself and
the surrounding circumstantial evidence that it was not
genuine.
The district court also had another, independent
ground for discounting Alfonso’s testimony: that she was
not “an unbiased witness.” Alfonso is a former employee
and current director of Maritime. She had an obvious
incentive to tailor her testimony to support Maritime’s
interests. And regardless of whether we would have
regarded this incentive as sufficient to discredit Alfonso’s
testimony in the exercise of our independent judgment,
the credibility determination by the district court is
binding on us. As we have explained, “[t]he credibility of
a witness is in the province of the factfinder,” and we “will
not ordinarily review the factfinder’s determination of
credibility.” United States v. Copeland, 20 F.3d 412, 413
(11th Cir. 1994).
Second, Maritime argues, based on Young v. United
States ex rel. Vuitton et Fils S.A., 481 U.S. 787, 107 S.
Ct. 2124, 95 L. Ed. 2d 740 (1987), that permitting a third
party to litigate on behalf of the United States in an
ancillary forfeiture proceeding is structural error, but

15a
Appendix A
this argument is a nonstarter. In Young, a plurality of
the Supreme Court concluded that the “appointment of an
interested prosecutor” in a criminal contempt proceeding
is a structural error. Id. at 810. This rule does not apply
to an ancillary proceeding conducted under section 853(n)
because such a proceeding is civil in nature. See, e.g.,
United States v. Douglas, 55 F.3d 584, 586 (11th Cir. 1995)
(“Congress therefore viewed a [section] 853(n) hearing
as a species of an ‘action at law or equity’—a substitute
for separate civil litigation against the government.”);
United States v. Gilbert, 244 F.3d 888, 907 (11th Cir. 2001),
superseded by rule on other grounds as recognized in
United States v. Marion, 562 F.3d 1330 (11th Cir. 2009)
(expanding Douglas to other kinds of forfeitures). Indeed,
if there were a constitutional prohibition on interested
private parties representing the United States in civil
actions, the validity of statutes such as the False Claims
Act, 31 U.S.C. § 3730, would be doubtful.
Trinidad’s intervention did not affect Maritime’s
“substantial rights.” Fed. R. Civ. P. 61. Although the
district court erred in permitting a foreign sovereign
with no interest of its own to litigate on behalf of the
United States, this error does not require reversal of the
dismissal of Maritime’s claim.
IV. CONCLUSION
We AFFIRM the judgment in favor of the United
States.

16a
B of hearing
Appendix b —Appendix
excerpts
transcript of UNITED STATES DISTRICT
COURT for the SOUTHERN DISTRICT OF
FLORIDA MIAMI, dated December 8, 2016
[1]IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI
CASE NO. 05-CR-20859-PCH-2
UNITED STATES OF AMERICA,
Plaintiff,
vs.
RAUL J. GUTIERREZ,
Defendant.
December 8, 2016
TELEPHONIC STATUS CONFERENCE
BEFORE THE HONORABLE PAUL C. HUCK,
UNITED STATES DISTRICT COURT JUDGE
***
[6]THE COURT:
***

17a
Appendix B
I’m going to deny the motion to preclude Mr. Grossman
or any of the representatives from his firm or who was
acting on behalf of his firm when they were participating
in the depositions for the reasons basically set forth in the
government and Trinidad’s response.
***
[7]And as I said on prior occasions, I look at who are
really the parties in interest here. It’s really between
Maritime and Trinidad and Tobago, slash, the banks.
I think I’m trying to do the right thing by relieving the
government of its -- of a heavy burden of prosecuting this
case by putting that burden on the real party in interest.
And maybe that was one of those things where no
good deed goes unpunished, but I’m going to stick with
my prior position, and Mr. Grossman and his colleagues
could actively participate, including participating in the
depositions.
***
[8]MR. GROSSMAN:
***
I understand the government has taken -- in their
papers they say they’re going to do all of the questioning.
In our papers we actually requested the Court continue to
permit us -- in fact, at this limited trial to ask questions,
to point to documents.

18a
Appendix B
THE COURT: Well, the government doesn’t seem to
want you to do that. I’m not going to preclude that, Mr.
Gregorie. As far as I’m concerned, Mr. Grossman can fully
participate, but if it’s your determination that you don’t
want him to participate, then I’m going to abide by that.
MR. GREGORIE: I understand, Your Honor, it’s
the position of the Department of Justice, which is a
[9]representative of the United States, that the United
States has got to be conducting this proceeding, Judge.
****

19a
C of hearing
Appendix C —Appendix
excerpts
transcript of the UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, MIAMI DIVISION,
DATED JULY 9, 2014
[1]IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
CASE NO.: 05-CR-20859-PCH
UNITED STATES OF AMERICA,
Plaintiff,
v.
RAUL J. GUTIERREZ, et al.,
Defendants.
Miami, Florida
July 9, 2014
STATUS HEARING BEFORE
THE HONORABLE PAUL C. HUCK
UNITED STATES DISTRICT JUDGE
***
[5]THE COURT: All right. Let’s talk about some
of the issues [6]that have been raised both in the report
and recommendation as well as the objections and the

20a
Appendix C
response. Maritime makes much to do about Trinidad’s
lack of standing in this case. I think you need to clarify
that.
My recollection is that Trinidad did not file a Section
853(n) claim because it’s not seeking anything pursuant to
that particular statutory provision, but rather Trinidad is
involved in this litigation essentially to act as a surrogate
for the United States Government because, first, the
Government has a claim under the forfeiture laws to the
Red Road property. And second, Trinidad has a claim for
restitution as a victim.
A nd then, if the Government prevails on the
forfeiture of the Red Road property, then, I’m assuming
it still intends to provide restitution from the proceeds
to Trinidad. As I say, Trinidad, I don’t think has ever
represented a claim under 21 United States Code 853(n).
My recollection, also, is that the reason I allowed
Trinidad to intervene in this case because, in my view, it
was only fair and proper that Trinidad would do the heavy
lifting for the Government in this case because if that side
wins, Trinidad will hopefully benefit.
***
[7]MR. ROPOLLO: And that is ours also, Judge.
But as we will find out, contrary to law, there is a long
precedent of cases that do not allow to specifically state
that restitution victims cannot have a role in the forfeiture
like this.

21a
Appendix C
THE COURT: Well, it is not having a legal role.
Basically, and let me go back and repeat, I’m not
suggesting that Trinidad is here as the party kind of
protecting its rights and asserting its direct rights, but
rather as a surrogate for the Government. Basically,
doing the Government’s work for the Government, but the
Government is the party that has the claim for restitution
and is objecting to or fighting you on your claim under
Section 853(n).
So I don’t think those other cases are particularly
pertinent. It’s just a matter of who is doing the work and
who is going to be taking the depositions and writing the
memoranda. And it seems to me the Government used its
resources in a case like this and that was my thinking on it.
MR. ROPOLLO: Well, and if I may briefly, Your
Honor, that poses many of the problems we’ve been
experiencing in the past four years. The Government itself
is the body that looks to this. They have the responsibility
of showing why they have the right to forfeiture and so
far they haven’t done that.
We’ve got Trinidad speaking for the U.S. Government
and it is not the U.S. Government really ever explaining
their part of the [8]case. The Government has represented
to you objecting of having RTT intervene.
***

22a
Appendix C
[8]THE COURT: Okay. I understand your argument
and I hope you understand my position the same way.
I’m going to allow the Trinidad entity to remain
in the association not in their own rights, but as I said
before, to do the work on behalf of the Government. It’s
the Government seeking forfeiture and, then, I guess
contesting your 853(n) claim.
And so again, rather than have the Government use
its resources I’m going to allow the Government to rely on
the work done by the lawyers that were Trinidad. In case
anybody is unclear about it, the Trinidad entity does not
have a direct claim under 853 or under the forfeiture claim.
Its only right is as a victim to restitution in the
event that the Government prevails on the Government’s
forfeiture claim. So hopefully I put that to rest for you.
Whether right or wrong [9]that’s my ruling.
****

23a
D of hearing
Appendix D —Appendix
excerpts
transcript of the UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, MIAMI DIVISION,
DATED JANUARY 23, 2012
[1]UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
Case No. 05-20859-CR-PCH
UNITED STATES OF AMERICA,
Plaintiff,
vs.
RAUL GUTIERREZ, et al.,
Defendant.
Miami, Florida
January 23, 2012
TRANSCRIPT OF MOTION HEARING
BEFORE THE HONORABLE PAUL C. HUCK
UNITED STATES DISTRICT JUDGE
***
[37]THE COURT: Here’s what we’re going to do. The
Government really shouldn’t be in this, shouldn’t be given
the burden, in my humble opinion. So here’s what I think

24a
Appendix D
we should do. The Government has the documents, it’s
going to have to produce those together with the answers
to interrogatories and produce the agent. Okay? And work
that out among all the parties.
Once that’s done, it seems to me the real parties in
interest are -- parties in interest on the Government’s
side are the banks and the Republic. It seems to me from
that point forward, those parties, because they’re the
ones who are going to either win or lose, either get or
not get the money, they [38]should carry the burden of
the discovery, taking the depositions, etcetera, etcetera,
unless Mr. Gregorie, you tell me the Government has a
real interest in being involved in that, and it seems to me
that the laboring oar belongs in the hands of the banks
and the Trinidad Republic.
MR. GREGORIE: We do not have an interest in that,
Your Honor. We would prefer to defer to the bank’s counsel
for that, Judge.
THE COURT: Okay. Mr. Moorefield, Mr. Grossman,
you want to take on that responsibility?
MR. MOOREFIELD: We’ll be happy to, Your Honor,
yes, sir. We’ll work with RTT and prepare that discovery
in any format Your Honor would like, informal, formal,
whatever you direct us to do, Judge.
MR. GROSSMAN: Yes, Your Honor.

25a
Appendix D
THE COURT: Okay. So after we get the Government
out of the picture, the three of you can work out your
schedule.
How’s that?
MR. ROPPOLO: Your Honor, one point on the that.
The Government is the entity that is trying to forfeit this
house. It’s not RTT, it’s not the bank group. And the bank
group and RTT, what they are, they’re alleged victims
here who are asking the Government if the Government
wins, if the Government can forfeit this, then please give us
the money as restitution victims. But it’s the Government,
the US Government who is the [39]one who is actually in
charge here. They’re the ones who are trying to take this
house.
THE COURT: So what’s your point?
MR. ROPPOLO: Well, to have, for example, RTT lead
the charge of this, you’re having a sovereign government –
THE COURT: So your point is you don’t want them
– you don’t want the banks, you don’t want the Republic
of Trinidad and Tobago to be involved in the discovery.
MR. ROPPOLO: Your Honor, that’s correct. I don’t
think -THE COURT: Well, I’m going to let them be involved
because the Government has put enough time and effort
into this case, and the battle is between contending people

26a
Appendix D
who want that asset. The Government doesn’t want that
asset. I guess it could have taken it in the nature of a fine,
but no, they felt the victims should be entitled to it. So the
victims and Maritime, you’re going to have to fight it out.
Seems the fair thing to do and relieve the Government of
the financial and other burdens associated with this battle.
Yes, sir.
****

27a
E of hearing
Appendix E —Appendix
excerpts
transcript of the UNITED STATES
DISTRICT COURT SOUTHERN DISTRICT OF
FLORIDA, MIAMI DIVISION, DATED
April 12, 2007
[1]UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
CASE NO. 05-20859-CRIMINAL-HUCK
UNITED STATES OF AMERICA,
Plaintiff,
vs.
RAUL J. GUTIERREZ, et al.,
Defendants.
Miami, Florida
April 12, 2007
HEARING - RED ROAD PROPERTY
BEFORE THE HONORABLE PAUL C. HUCK
UNITED STATES DISTRICT JUDGE
***
[39]THE COURT: Okay. Now, is there anything else
we [40]need to take care of?

28a
Appendix E
MS. REYNOLDS: Yes, Your Honor.
THE COURT: Okay.
MS. REYNOLDS: It’s an issue I raised at the last
hearing. There is a potential conflict here. The Court at the
sentencing ordered that this property be used exclusively
for restitution. Restitution and forfeiture are an opposite.
Forfeiture, it goes to the forfeiture fund. Restitution, it
goes to the victims.
And I had attempted to, after the restitution hearing
and the judgment, I have attempted on behalf of the United
States to get out of the forfeiture and get the forfeiture
out of this case so it can be dealt with in restitution.
Your Honor had indicated at that time that you would
prefer to go forward with the forfeiture at this juncture
with all of the judicial -- with all of our offices investment
and time and discovery, I don’t think it is wise for us to
proceed with the forfeiture because it has been specifically
ordered restitution. And after all of this, you are going
to end up entering an order of forfeiture again, which is
conflicting.
So whatever it’s worth, I would like to inform the
Court of that potential conflict.
***
[41]THE COURT: I tell you what, why don’t you go
talk to Mr. Gregory and then you come up with a proposal,

29a
Appendix E
talk to the other parties, and we’ll see where we are. Now,
I can see where the government wants to limit its exposure
and time and effort in this case, but I think you are going
to see that you are going to get a lot of cooperation from
the lawyers for the Republic and for the banks. So they
probably are going to be carrying the laboring oar, I would
think, from this point forward.
MS. REYNOLDS: That’s true, Your Honor. And
[42]actually, they have been extremely helpful. But as Mr.
Klock had pointed out in his brief and we have been very
silent on this, in a forfeiture proceeding, it is extremely
clear from all the case law and the statute, the victims
really don’t have a right to have standing in a forfeiture
proceeding. They have been allowed to intervene. But
playing this out, Your Honor, this is not the case that will
come before you. And it’s of concern to the United States
because we do it all the time. And an exception can be
made which can become precedential. At this point, I’m
extremely concerned about it.
***
THE COURT:
***
With regard to whether you want to get the
[43]assistance of the -- or continue to have the victims
intervene, well, if you don’t want to do that, then the
victims can ask to intervene and I’ll probably let them
intervene in this case because I know ultimately they are

30a
Appendix E
the ones who are going to benefit if the government wins
on the forfeiture.
Even if they lose on the forfeiture, they may ultimately
win, because if the property is not forfeited, it still doesn’t
mean that Ms. Guitierrez is going to get the property. It
may well be that the creditors get the property. I don’t
know. We will have to wait for another day.
****

31a
F THE UNITED
APPENDIX F —Appendix
ORDER OF
STATES DISTRICT COURT OF THE SOUTHERN
DISTRICT OF FLORIDA, DATED MARCH 8, 2007
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 05-CR-20859-HUCK
UNITED STATES OF AMERICA,
Plaintiff,
vs.
RAUL GUITERREZ,
Defendant.
ORDER GRANTING BANK VICTIMS AND
THE REPUBLIC OF TRINIDAD AND TOBAGO
MOTIONS TO INTERVENE
THIS CAUSE came before the Court upon the Bank
Victims’ Motion to Intervene and Joinder in Republic of
Trinidad and Tobago’s Motion to Intervene filed March
1, 2007 (D.E. 470) and The Republic of Trinidad and
Tobago’s Motion to Intervene filed February 27, 2007
(D. E. 262). Upon review of the record and a hearing being
held regarding this matter, it is hereby
ORDERED A ND A DJUDGED that the Bank
Victims’ Motion to Intervene and Joinder in Republic of

32a
Appendix F
Trinidad and Tobago’s Motion to Intervene filed March
1, 2007 (D. E. 470) and The Republic of Trinidad and
Tobago’s Motion to Intervene filed February 27, 2007
(D.E. 262) is GRANTED.
DONE AND ORDERED in Chambers, Miami,
Florida, this 7th day of March, 2007.
/s/				
PAUL C. HUCK
UNITED STATES
DISTRICT JUDGE
Copies furnished to:
All counsel of record

33a
Appendix G OF THE UNITED
APPENDIX G — TRANSCRIPT
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, DATED MARCH 6, 2007
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 05-20859-CR-HUCK
UNITED STATES OF AMERICA
vs.
RAUL J. GUTIERREZ,
Defendant.
HEARING HELD MARCH 6th, 2007
BEFORE THE HONORABLE PAUL C. HUCK
UNITED STATES DISTRICT JUDGE
***
THE COURT. *** Let’s deal w ith the motion
to intervene first. I am going to grant the motion to
intervene. I am not sure if they have standing, but we are
not going to have three people arguing the same thing.
You can form a committee on the Government slash victim
side and decide who will be speaking for that group. You
should have interests that are in common. If there is an
issue with that let me know.
****

34a
AppendixOF
H REHEARING OF
APPENDIX H — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT, FILED APRIL 10, 2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
No. 17-10889-GG
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MARITIME LIFE CARIBBEAN LIMITED,
Interested Party-Appellant,
RAUL J. GUTIERREZ,
Defendant.
Appeal from the United States District Court
for the Southern District of Florida
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR and MARTIN, Circuit
Judges, and WOOD,* District Judge.
* The Honorable Lisa Godbey Wood, United States District
Judge for the Southern District of Georgia, sitting by designation.

35a
Appendix H
PER CURIAM:
The Petition(s) for Rehearing are DENIED and
no Judge in regular active service on the Court having
requested that the Court be polled on rehearing en banc
(Rule 35, Federal Rules of Appellate Procedure), the
Petition(s) for Rehearing En Banc are DENIED.
ENTERED FOR THE COURT:
/s/
UNITED STATES CIRCUIT JUDGE

